WAIVER

SUPREME COURT OF THE UNITED STATES

 

 

Edeline Julmisse Prosper, as PR of Estate ‘Anthony Martin

 

 

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

Oo Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

 

 

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).

Signature: ZL ae Ta y Z Mane

Date: 10/5/21 eee eeeeeeeeeees|

 

 

 

(Type or print) Name ‘Ana Angelica Viciana |

© wr. © Ms. © Mrs. © Miss

Firm Miami-Dade County Attorney's Office
Address 111 NW 1st Street, Suite 2810

City & State |Miami, Florida | Zip [33128

Phone 305-375-4948 | Email

 

 

 

 

 

anita@miamidade.gov |

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Court Edward Keeley, Counsel of Record for Petitioner
ce: Court Keeley, P.A.
* 169 East Flagler Street, Suite 1600, Miami, FL 33131 |

 
